CERTIFICATE OF SERVICE
No. 21-
ARMEL BAXTER,
Petitioner,
Vv.

SUPERINTENDENT COAL TOWNSHIP SCI, et al.,

Respondents.
I, Jeffrey T. Green, do hereby certify that, on this 27th day of September,
2021, I caused three copies and an electronic copy of the Petition for a Writ of

Certiorari to the United States Court of Appeals for the Third Circuit in the
foregoing case to be served by first class mail and by email, on the following parties:

David Napiorski, Esq. Ronald Eisenberg, Esq.
Philadelphia County Office of Office of Attorney General of
District Attorney Pennsylvania

13th Floor 1600 Arch Street

3 South Penn Square Suite 300

Philadelphia, PA 19107 Philadelphia, PA 19103

    

 

JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8291

 
